No. 20-5572

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL WITKIN -- PETITIONER

vs.

MARIANA LOTERSZTAIN, et al. -- RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO
the United States Court of Appeals for the Ninth Circuit

PETITION FOR REHEARING

MICHAEL WITKIN
DVI 11R
2350 !aria EYED
Trac , CA 95304

NOV 2 4 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

INTRODUCTION
The State of California has been running a fraud mill at the expense of
the integrity of the United States Courts. And they have been caught. It
is difficult to imagine a more compelling reson for the Court to intervene.
The record before the Court reveals that the California. Department of
Corrections and Rehabilitation (CDCR) has been evading its constitutional
duty to provide minimally adeqate medical care to the world leading 120,000
souls in its custody. This abuse of the trust of the People of the State
of California has been repeatedly achieved by using a former CDCR staff
physician, Dr. Bruce Barnett, to provide false expert medical opinion
testimony, concerning the quality of care provided by CDCR physicians, to
the federal district courts. (See August 3, 2020 Petition for a Writ of
Certiorari (Petition) at 2, 14-18, 23-27). That junk science opinion
testimony was perjury as it "directly contradicts the 'specialized
knowledge" the Dr. actually has. (Petition at 24 (quoting Fed. R. Evid.
702(a)).
The defendants were granted summary judgment on Petitioner's Eighth
Amendment claims, because the District Court held his failure to present
an expert medical opinion conflicting with that of Dr. Barnett, fatal to
his deliberate indifference claim. (ECF No. 83 at 6, 43-46, Pet. App. B).
There is an open question of federal law, with a 4-2 circuit split, on the
issue of whether expert medical testimony is necessary for an inadequate
medical care deliberate indifference claim to survive a motion for summary
judgment. (See Supreme Court Rule 10(c)).

///

ARGUMENT
I. IF THE UNITED STATES SUPREME COURT CAN DO NOTHING ABOUT THE ONGOING
PERVERSION OF JUSTICE PERPETRATED BY THE STATE OF CALIFORNIA IN THE
NINTH CIRCUIT THEN WHILE IT IS TRUE THAT WE HAVE A LEGAL SYSTEM, IT
IS EQUALLY TRUE THAT WE DO NOT HAVE A JUSTICE SYSTEM.
A. The Disposition Of Eighth Amendment Questions Based Upon Expert
Medical Opinion Testimony That Meets None Of The Requirements Of
Fed. R. Evid. 702 Has Nullified The Eighth Amendment And Made Federal
Civil Rights Proceedings Meaningless.
When the Court denied the underlying petition on October 13, 2020 it was
operating with 8 justices and was understandably in a hurry to dispose of
some certiorari petitions. With that being said the Court cannot allow the
miscarriage of justice and extreme departure from federal law shown by this
record to stand. (Supreme Court Rule 10(a)). At the least, the Court should
demand a brief in opposition from the State of California. (Sup. Ct. Rule
15.1).
Here the defendant CDCR physicians received a grant of summary judgment,
(Pet. App. B-C) by presenting junk science falsified expert medical testimony
from Dr. Bruce Barnett, that they met the community standard of medical
care in their treatment of petitioner. (Pet. App. G-H). The deposition
testimony of Dr. Barnett, (Pet. App. J), makes it abundantly clear that
the defendants did not come close to meeting the standard of care. (See
Petition at 23-26).
It is an undisputed fact plain on face of the record that the Courts below
failed to subject the junk science presented by the State of California
to federal evidentiary standards for such testimony despite petitioner's
objections to admission of the testimony. (See ECF No. 83 at 6-7, Pet. App.
B; Fed. R. Evid 702). Dr. Barnett's deposition testimony revealed that the
State of California has an M.O. of presenting such false testimony for the
financial reason of avoiding their Eighth Amendment responsibility of
2

providing minimally adequate medical care to their enormous prison
population. (See Petition at 6 (citing Barnett Dep. at 54, 56, 59)), Petition
at 26-27). In other words California prison officials have defrauded the
taxpayers, and the federal courts, in order to retain Public funds. Why
would this Court allow them to get away with such crimes against humanity
when they have been caught in the act, plain on the face of this record?
The Court should order them to file a brief in opposition explaining their
actions.
B. The Circuit Split On The Necessity Of Expert Medical Evidence In
These Recurring Cases Invites Arbitrary And Unjust Results.
It is petitioner's position that the four Circuit Courts holding that•
expert medical evidence is not necessary for an inadequate medical
indifference claim to survive a motion for summary judgment have the better
side of the argument. (See Petition at 19-22). If the Second, Third, Fourth
and Eleventh Circuits are correct, then the judgment below would have to
be reversed for holding that petitoner's failure to offer expert medical
evidence was fatal to his claim.
The problem with the holding below, and those of the Sixth and Eighth
Circuits, is that an expert testimony requirement nullifies the Farmer
standard of "'subjective mental intent.'" (Petition at 20 (quoting Campbell
v. Sikes, 169 F.3d 1353, 1371 (11th Cir 1999)) (citing Farmer v. Brennan,
511 U.S. 825 (1994))).
In cases like this where there are obvious questions of fact with respect
to the adequacy of care provided, (Petition at 23-26), and the subjective
mental intent of the defendants, (id. at 12-13), the litigant is still denied
his day in court.
The Court cannot allow this to be the ongoing state of federal law. The
Court's review is warranted.

CONCLUSION
The petition for rehearing should be granted.
Respectfully submitted,
MICHAEL WITKIN
November 3, 2020

ti
.-4

CERTIFICATE
I hereby certify that this petition for rehearing is presented in good
faith and not for delay. It is limited to intervening circumstances of a
substantial or controlling effect and to other substantial grounds not
previously presented.
Dated: November 3, 2020

M AEL WITKIN

t—
Petitioner

No

20-5572

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER

MICHAEL W:TKIN

(Your Name)
VS.
MARIANA LOTERSZTAIN, et al. — RESPONDENT(S)

PROOF OF SERVICE
I, MICHAEL WITKIN

November 5

, do swear or declare that on this date,
, 202Q, as required by Supreme Court Rule 29 I have

served the enclosed
PETITION FOR REHEARING
on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Misha D. 'gra. SDAG Office of the Attorney General
P.O. Box 944255
Sacramento, CA 94244-2550

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

November 5

, 2021L

(Signature)

